HHS/OIG-Audit--"Underreporting Federal Development in New Technologies Developed at the Scripps Research Institute, (A-15-93-00029)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Underreporting Federal Development in New Technologies Developed at
the Scripps Research Institute," (A-15-93-00029)
June 15, 1994
Complete Text of Report is available in PDF format
(1.29 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out weaknesses in the National Institutes of Health's
(NIH) procedures for monitoring compliance with provisions of the Patent and
Trademark Amendments Act (Act) of 1980 at the Scripps Research Institute (SRI)
of La Jolla, California. The NIH was not aware of inventions being developed
at SRI with NIH grant funds, and therefore could not provide assurance that
the objectives of the Act were being met. Information from NIH showed that only
51 (41 percent) of the 125 patents awarded to SRI were developed with help from
Federal grant funds. However, after we raised questions about the accuracy of
SRI's reporting, SRI, on June 30, 1993, revealed to NIH that 96 of its patents
were developed with the help of Federal funds. We are recommending the NIH determine
if SRI properly reported all patented inventions and that NIH establish procedures
to better monitor SRI's compliance with the Act.